No. 19-

IN THE

Oupreme Court of tie Eniteb iptateo
FORD MOTOR COMPANY OF CANADA, LTD.,
Petitioner,
v.
GEORGE BELL, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
California Court of Appeals

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,813 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 1, 2020.

Colin Case Hogan
Wilson-Epes Printing Co., Inc.

